No. 19-1039
INTHE
Supreme Court of the United States

PENNEAST PIPELINE COMPANY, LLC, Petitioner,
V.

STATE OF NEW JERSEY, ET AL. , Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Third Circuit

PROOF OF SERVICE
I, Ellen 0. Boardman, a member of the Bar of this Court, do hereby certify pursuant to
Supreme Court Rules 29.3, 29.5, and 37.5 that I have, this 23rd day of March, 2020, caused to be
served three (3) copies of the Brief of the United Association of Journeymen and Apprentices of
the Plumbing and Pipe Fitting Industry of the United States and Canada, AFL-CIO; International
Union of Operating Engineers; International Brotherhood of Teamsters; Laborers' District
Council of Eastern Pennsylvania; and New Jersey State Building and Construction Trades
Council as Amici Curiae in Support of Petitioner in this proceeding by causing them to be
deposited with the United States Postal Service, with first-class postage prepaid, addressed to
counsel of record at the addresses listed below:
Gurbir S. Grewal
25 Market Street
P.O. Box 093
Trenton, NJ 08625
gurbir.grewal@njoag.gov
Attorney General ofNew Jersey

Jennifer Danis
Columbia University School of Law
Environmental Law Clinic
435 West l l 6th Street
New York, NY 10027
jdanis@law.colwnbia.edu
Counsel for the New Jersey Conservation Foundation
Paul D. Clement
Kirkland & Ellis LLP
1301 Pennsylvania Ave, NW
Washington, DC 20004
paul.clement@kirkland.com
Counsel for Petitioner
I further certify that, pursuant to Supreme Court Rule 29.3, I have caused electronic

copies of the brief to be served on the parties at the email addresses listed above and that all
parties required to be served have been served.

Ellen 0. Boardman - Counsel of Record
O'DONOGHUE & O'DONOGHUE LLP

5301 Wisconsin Avenue, NW
Suite 800
Washington, DC 2001 5
eboardman@odonoghuelaw.com
(202) 362-0041
Counsel for Amici Curiae
March 23, 2020

2

